No. 20-7778
INTIIE

&upremt Cltnurt nf tiJt 1lttttth &tatts
GERALD SCOTI',
V.

UNITED STATES,

Petitioner,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE

I, -Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 17th day of May, 2021, all parties required to be served have been served copies of
the Brief of F AMM and The National Association of Criminal Defense Lawyers as
Amici Curiae in Support of Petition for a Writ of Certiorari in this matter by overnight
courier to the address below.
MATTHEW B. LARSEN
FEDERAL DEFENDERS OF NEW YORK

52 Duane Street
New York, NY 10007
(212) 417-8725

Matthew_Larsen@fd.org

ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

ALANE. SCHOENFELD

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

'

7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

